                                                                             report no. DoDIg-2014-033




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

             JA N uA ry 2 8 , 2 0 1 4




                 Followup Audit: Body Armor First
                 Article Testing Standardized DoD-Wide




I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e
         I n t e g r I t y  e f f I c I e n c y  a c c o u n ta b I l I t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
	
                                       Results in Brief: Followup Audit:
                                       Body Armor First Article Testing
                                       Standardized DoD-Wide


January 28, 2014                                        Findings Continued

Objective                                                  • issued the final procedures to address Recommendation B.

Our objective was to determine whether the              Further, the Military Services, U.S. Special Operations Command,
Director, Operational Test and Evaluation,              and Defense agencies incorporated the procedures into their
coordinated with the Military Services,                 ballistic plates testing documents. This mitigated the issue of
U.S. Special Operations Command, and                    testing inconsistency.
Defense agencies to develop the standardized,
first article testing procedures for body               Management Comments
armor ballistic inserts as agreed to in
Recommendation B of DoD IG Report                       We provided a discussion draft. No written response to this report
No. D-2009-047, “DoD Testing Requirements               was required, and none was received. Therefore, we are publishing
for Body Armor,” dated January 29, 2009.                this report in final form.
Additionally, we determined whether the
Military Services, U.S. Special Operations
Command, and Defense agencies implemented
the procedures to mitigate body armor testing
inconsistencies.


Findings
The Director, Operational Test and Evaluation
coordinated with the Military Services,
U.S. Special Operations Command, and Defense
agencies to develop a standardized, first
article    testing   procedures   for   body
armor ballistic inserts as agreed to in
Recommendation B. Specifically, the Director,
Operational Test and Evaluation:

   •		 collaborated with Army Test and
       Evaluation Command to develop a sample
       size for testing that limits the number of
       possible failures;                                Figure. Test Sample Mounted for Ballistic Testing
                                                         Source: DoD OIG
   •		 coordinated the draft procedures; and




Visit us on the web at www.dodig.mil


                                                                                 DODIG-2014-033 (Project No. D2013-000XD-0198.000) │ i
                                               INSPECTOR GENERAL

                                               DEPARTMENT OF DEFENSE

                                               4800 MARK CENTER DRIVE
                                            ALEXANDRIA, VIRGINIA 22350-1500


                                                                                            January 28, 2014

              MEMORANDUM FOR COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
                          DIRECTOR, OPERATIONAL TEST AND EVALUATION
                          DIRECTOR, DEFENSE LOGISTICS AGENCY
                          NAVAL INSPECTOR GENERAL
                          AUDITOR GENERAL, DEPARTMENT OF THE ARMY

              SUBJECT: Followup Audit: Body Armor First Article Testing Standardized DoD-Wide
                       (Report No. DODIG-2014-033)

              We are providing this report for your information and use. Our objective was to determine
              whether the Director, Operational Test and Evaluation, coordinated with the Military Services,
              U.S. Special Operations Command, and Defense agencies to develop the standardized,
              first article testing procedures for body armor ballistic inserts as agreed to in
              Recommendation B of DoD IG Report No. D-2009-047, “DoD Testing Requirements for
              Body Armor,” dated January 29, 2009. Additionally, we determined whether the Military
              Services, U.S. Special Operations Command, and Defense agencies implemented the
              procedures to mitigate body armor testing inconsistencies.

              We considered management comments on a discussion draft of this report in preparing
              the final and revised the report as appropriate. No written response to this report is required.

              We appreciate the courtesies extended to the staff.        Please direct questions to me at
              (703) 604-8905 (DSN 664-8905).




                                                            Amy J. Frontz
                                                            Principal Assistant Inspector General
                                                               for Auditing




ii │ DODIG-2014-033
Contents

Introduction _____________________________________________________________________________1
Objective _________________________________________________________________________________________1
DoD Testing Requirements for Body Armor __________________________________________________1

DoD Standardized Body Armor Testing ______________________________2
DOT&E Developed Testing Procedures _______________________________________________________2
DoD Implemented Testing Procedures ________________________________________________________3
DOT&E Procedures Standardized First Article Testing ______________________________________3

Appendix
Scope and Methodology ________________________________________________________________________4
Use of Computer-Processed Data ______________________________________________________________4
Prior Coverage __________________________________________________________________________________5

Acronyms and Abbreviations _______________________________________________6




                                                                                                   DODIG-2014-033 │ iii
                                                                                                                                             Introduction




Introduction

Objective
Our objective was to determine whether the Director, Operational Test and
Evaluation (DOT&E) coordinated with the Military Services, U.S. Special Operations
Command (USSOCOM), and Defense agencies to develop the standardized, first article
testing procedures for body armor ballistic inserts as agreed to in Recommendation B
of DoD IG Report No. D-2009-047, “DoD Testing Requirements for Body Armor,”
dated January 29, 2009.                            Additionally, we determined whether the Military
Services, USSOCOM, and Defense agencies implemented the procedures to mitigate
inconsistencies in body armor testing.


DoD Testing Requirements for Body Armor
We performed this followup audit on Recommendation B in DoD IG Report
No. D-2009-047, the third audit in a series of congressionally requested reports on DoD
body and armored vehicles.

The prior audit identified that the Army and USSOCOM independently developed,
first article testing1 (FAT) criteria for body armor ballistic inserts. Specifically, when
testing the same ballistic threats, the Army’s and USSOCOM’s testing criteria differed
significantly in the number of plates tested (sample size), shot pattern, environmental
conditions, type of tests, and pass/fail guidelines.                                    Because of this, DoD did not
have assurance that its body armor provided a standard level of protection. As a result,
DoD OIG recommended that DOT&E develop a test operation procedure for body
armor ballistic inserts. Specifically, DOT&E should:

              • involve the Military Services and USSOCOM to verify that the test operation
                   procedure is implemented DoD-Wide;

              • include at a minimum, requirements for sample size, shot pattern, types
                   of testing, and acceptance criteria to verify the rigor of testing; and

              •		 use quantitative methods to develop a sample size for testing that limits
                   the number of possible failures.

DOT&E agreed with Recommendation B.


 1	
      According to FAR Part 2.101, first article testing is the testing and evaluating of the first article for conformance with specified
      contract requirements before the initial stage of production.




                                                                                                                                        DODIG-2014-033 │ 1
DoD Standardized Body Armor Testing




                 DoD Standardized Body Armor Testing

                 DOT&E implemented the corrective actions for Recommendation B and the actions
                 taken mitigated body armor testing inconsistencies.                                  DOT&E coordinated with the
                 Military Services, USSOCOM, and Defense agencies to develop a standardized
                 FAT procedure2 for body armor ballistic inserts. As a result, DoD had reasonable
                 assurance that its body armor provided a standardized level of protection across all
                 Military Services and USSOCOM for the warfighter.


                 DOT&E Developed Testing Procedures
                 DOT&E worked with Army Test and Evaluation Command (ATEC) to develop a
                 sample size for testing to limit the number of possible failures. ATEC recommended
                 minimum requirements for sample size, shot pattern, types of testing and acceptance
                 criteria to verify the rigor of testing. According to DOT&E, ATEC issued an assessment
                 report that outlined the results from testing 2,400 ballistic plates.                                        Based on this
                 report, ATEC recommended a 60-plate sample size to achieve a 90 percent
                 confidence level during testing. See Table for DOT&E minimum requirements.

                 DOT&E included ATEC results in the draft “Standardization of Hard Body Armor
                 Testing” procedure on March 9, 2010. The objective of the procedures is to establish
                 for DoD-Wide use, statistically derived test methods for hard body armor that will
                 provide for increased confidence in the performance of personal protective equipment.
                 The draft procedure was then coordinated with the Military Services, USSOCOM,
                 and Defense agencies.                   DOT&E also requested comments from manufacturing and
                 material providers and private industry laboratories. As a result of this coordination,
                 DOT&E clarified the confidence levels, testing criteria, and definitions. DOT&E issued
                 procedures for DoD Wide use on April 27, 2010.




                     2
                         DOT&E refers to the “Standardization of Hard Body Armor Testing” as the protocol. For the purpose of this report, protocol
                         is referred to as procedure(s).




2 │ DODIG-2014-033
                                                                                              DoD Standardized Body Armor Testing



Table. DOT&E’s Standardized Minimum Requirements345
                                                Minimum Requirements
                                  Testing of 60 plates against one ballistic threat3 is the minimum to achieve
 Sample Size
                                  the required statistical confidence level
                                      • Ambient Plates -Two shots are fired at each plate; one at the crown
                                        and one at the edge
 Shot Pattern
                                      • Impact Conditioned Plates -Two shots fired at each plate; one at
                                        location of most severe crack and second at any edge
                                  Testing to determine resistance to penetration during exposure to 10
 Types of Testing                 environmental conditions4
 Acceptance Criteria to           Outlines shot acceptance based on the degree of penetration5 to ballistic
 Verify Rigor Test                plate and back-face deformation cannot exceed 44mm



DoD Implemented Testing Procedures
The Army, USSOCOM and DLA incorporated the procedures in their ballistic plates
testing documents, which consisted of purchase descriptions, test plans, and
performance specifications. Aberdeen Testing Center (ATC) conducts FAT for Army,
USSOCOM, and Defense Logistics Agency to ensure consistency in the use of the
procedures. After testing, ATC provided comparable results to these components to
ensure the consistency of data.

Our review of the test results showed that the FAT was conducted to determine
the compliance with the procedures.                          According to body armor personnel at the
three Components, they used ATC test results when deciding to qualify body armor for
full-rate production.


DOT&E Procedures Standardized First Article Testing
Implementation of the procedures addressed Recommendation B and mitigated
body armor testing differences by standardizing FAT of body armor ballistic inserts.
Specifically, DOT&E set minimum requirements for sample size, shot pattern, types
of testing and acceptance criteria that were used DoD-Wide. Additionally, DOT&E’s
FY 2012 report stated, “the Services and USSOCOM continue to implement rigorous,
statistically based testing protocols for hard body armor inserts.”




 3
     A ballistic threat is a projectile that is fired from a weapon.
 4
     Environmental conditions include: ambient, temperature cycling, JP-8 (fuel) soak, oil soak, salt water, weathering, high
     temperature, low temperature, altitude, and impact.
 5
     The degrees of penetration are partial penetration of the plate/partial penetration of the system; complete penetration of
     the plate/partial penetration of the system; and complete penetration of the plate/complete penetration of the system.




                                                                                                                                  DODIG-2014-033 │ 3
Appendix




                 Appendix 

                 Scope and Methodology
                 We conducted this performance audit from July 2013 through December 2013
                 in accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objective.   We believe the evidence obtained provides a reasonable basis for our
                 conclusions based on our audit objective.

                 We focused our audit on the coordination, development, and implementation of
                 DOT&E’s “Standardization of Hard Body Armor Testing,” April 2010, to address
                 Recommendation B in DoD IG Report No. D-2009-047.               We reviewed results of
                 FAT conducted after May 2010 for front and back ballistic inserts.

                 We conducted interviews with DOT&E personnel and personnel responsible for
                 body armor testing from the Army, Marine Corps, USSOCOM, and DLA. Additionally,
                 we conducted site visits at the following locations: DOT&E, Washington, DC; Army
                 and Defense Logistics Agency Fort Belvoir, Virginia; Marine Corps, Quantico, Virginia;
                 and ATEC, Aberdeen Proving Grounds, Maryland.

                 We performed field work to review the implementation of the procedures. Specifically,
                 we reviewed final testing reports, test plans, purchase descriptions, and test results for
                 FAT to determine if all DoD Components were implementing DOT&E’s “Standardization
                 for Hard Body Armor.”


                 Use of Computer-Processed Data
                 To perform this audit, we used computer processed data captured in the FUSION
                 database. We compared the first article test reports within FUSION to DOT&E’s
                 Standardization for Hard Body Armor Testing, and we did not find significant
                 discrepancies. Based on our review, we determined that the data was sufficiently
                 reliable for the purpose of this audit.




4 │ DODIG-2014-033
                                                                                            Appendix



Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department
of Defense Inspector General (DoD IG), and Army Audit Agency issued six reports
related to body armor testing.      Unrestricted copies of GAO reports can be
accessed   www.gao.gov;   unrestricted   DoD   IG   reports    can   be   accessed   at
http://www.dodig.mil/pubs/index.cfm; and unrestricted Army reports can be
accessed at https://www.aaa.army.mil.


GAO
Report No. GAO-10-119, “Independent Expert Assessment of Army Body Armor Test
Results and Procedures Needed Before Fielding,” October 2009


DoD IG
Report No. D-2008-067, “DoD Procurement Policy for Body Armor,” March 31, 2008

Report No. D-2011-088, “Ballistic Testing for Interceptor Body Armor Inserts Needs
Improvement,” August 1, 2011


Army
Report No A-2009-0086-ALA, “Body Armor Testing,” March 30, 2009

Report No. A-2011-0082-ALA, “Implementing Body Armor Recommendations,”
April 15, 2011

Report No. A-2011-0132-ALA, “Body Armor Testing Process,” June 9, 2011




                                                                                      DODIG-2014-033 │ 5
Acronyms and Abbreviations




                 Acronyms and Abbreviations

                          ATC Aberdeen Test Center
                         ATEC Army Test and Evaluation Command
                          DLA Defense Logistics Agency
                       DOT&E Director, Operational Test and Evaluation
                           FAT First Article Testing
                     USSOCOM United States Special Operations Command




6 │ DODIG-2014-033
            Whistleblower Protection
           U.S. Department of Defense
	
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly update
                 dodigconnect-request@listserve.com

                        reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E n T O F D E F E n S E │ I n S P E C T O R G E n E R A L
                     4800 Mark Center Drive
	
                   Alexandria, VA 22350-1500

                         www.dodig.mil

                 Defense Hotline 1.800.424.9098
	
